                            Closeout of M92030011
             *   .


            - ."-, .,,
             3SJ     7
             =
             =''
               .a
                     "


              gk*,
             ,FA"" -

                                               ector received a letter




Research Center.
management of the
faculty members. After consultation with OIG staff, the Inspector
General concluded that these a1         did not rise to the level
                                               were directed back
                                                                         J


             1992




cc:   Inspector General
      Assistant I G for Oversight
